41
APPENDICES

42
APPENDICES
Table of Contents
App. 1
United States Court of Appeals
For the District of Columbia Circuit— No.
17-7150, Judgement

43

App. 2
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA—
No. 15-cv-0625, Final Order

46

App. 3
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA—
No. 15-cv-0625, Memorandum of Opinion

48

App. 4
United States Court of Appeals
For the District of Columbia Circuit— No.
17-7150, Order, Rehearing and Motion For
Judicial Recusal

58

App. 5
United States Court of Appeals
For the District of Columbia Circuit— No.
17-7150, Order, Rehearing En Banc

60

App. 6
United States Court of Appeals
For the District of Columbia Circuit— No.
17-7150, Motion For Judicial Recusal

62

43
App. 1

United States Court of Appeals
For the District of Columbia Circuit

No. 17-7150
Veronica W. Ogunsula,
Appellant
v.
Staffing Now, Inc.,
Appellee.

Before
Kavanaugh*, Wilkins, and Katsas
Circuit Judges

JUDGMENT
Entered: August 10, 2018
This appeal was considered on the record
from the United States District Court for the
District of Columbia and on the briefs filed by the
parties. See Fed. R. App. P. 34(a)(2); D.C. Cir. Rule
34(j). Upon consideration of the foregoing and the
motion for leave to file an appendix, it is

44
ORDERED the that motion for leave to file
an appendix be granted. The Clerk is directed to
file appellee’s lodged appendix. It is
FURTHER ORDERED, on the court’s own
motion, that the Clerk is directed to file the
appendix lodged by appellant on May 24, 2018. It is
FURTHER ORDERED AND ADJUDGED
that the district court’s orders filed January 19,
2017, May 11, 2017, and September 21, 2017 be
affirmed. To establish a prima facie case of
employment discrimination, appellant was required
to show that she applied and was qualified for a job
for which Respondent was seeking applicants;
despite her qualifications, she was rejected; and
after her rejection, the position remained open and
Respondent continued to seek applicants from
persons of her qualifications. See McDonnell
Douglas Corp. v. Green, 411 U.S. 792, 802 (1973);
Aka v. Washington Hosp. Center, 156 F.3d 1284,
1288 (D.C. Cir. 1998) (en banc). Appellant has
shown no error in the district court’s holding that
she failed to make such a prima facie showing.
Appellant argues that she lacked evidence in
support of her claims because the district court
incorrectly denied her discovery motions. However,
she has not demonstrated that the court abused its
broad discretion to manage the scope of discovery.
See SafeCard Servs., Inc. v. SEC, 926 F.2d 1197,
1200 (D.C. Cir. 1991).

45
Appellant’s remaining claims of error were
not raised in district court and are raised for the
first time on appeal in her reply brief, and we
accordingly decline to consider them. See United
States v. Stover, 329 F.3d 859, 872 (D.C. Cir. 2003);
McBride v. Merrell Dow and Pharms., Inc., 800
F.2d 1208, 1210 (D.C. Cir. 1986).
Pursuant to D.C. Circuit Rule 36, this
disposition will not be published. The Clerk is
directed to withhold issuance of the mandate herein
until seven days after resolution of any timely
petition for rehearing or petition for rehearing en
banc. See Fed. R. App. P. 41(b); D.C. Cir. Rule 41.
Per Curiam

OR THE COURT:
Mark J. Langer, Clerk
By: /s/
Michael C. McGrail,
Deputy Clerk

*Circuit Judge Kavanaugh was a member of the panel at the
time the case was* submitted, but did not participate in this
judgment.

46
App. 2

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 15-cv-0625 (TSC)
VERONICA W. OGUNSULA,
Plaintiff,
v.
STAFFING NOW, INC.,
Defendant.

ORDER
Filed 09/21/17
For the reasons stated in the accompanying
Memorandum Opinion, it is
ORDERED that Plaintiffs Motion Under
Rule 56(d) (ECF No. 56) is DENIED, Defendant’s
Motion for Summary Judgment (ECF No. 48) is
GRANTED, judgment is entered for the Defendant,
and this case is closed.
This is a final appealable Order.

Date: September 21, 2017

47
s/
TANYA S. CHUTKAN
United States
District Judge

48
App. 3

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 15-cv-0625 (TSC)
VERONICA W. OGUNSULA,
Plaintiff,
v.
STAFFING NOW, INC.,
Defendant.

MEMORANDUM OPINION
In this employment discrimination action
filed pro se, Plaintiff alleges that Defendant, a
temporary employment agency, discriminated
against her because of her race, national origin and
age. (Am. Compl., ECF No. 17). Following a lengthy
time for discovery, Defendant has moved for
summary judgment pursuant to Federal Rule of
Civil Procedure 56 (ECF No. 48), and Plaintiff has
moved for additional discovery pursuant to Rule
56(d) (ECF No. 56). For the reasons explained
below, the Court will GRANT Defendant’s motion
and DENY Plaintiffs motion.
I. BACKGROUND

49

Plaintiff is an African American woman who
is at least 40 years old. Her surname is Nigerian.
(Am. Compl. Tf 4). Plaintiff alleges the following
facts: In July 2014, she contacted Defendant
“seeking temporary staffing and long-term staffing
opportunities in the Washington, D.C. metropolitan
area.” {Id. 1 5). In early August 2014, Plaintiff
spoke by telephone with Staffing Now Senior
Manager Chris Van Landingham regarding
temporary assignments. {Id. ft 7-8; Dec. 5, 2016
Ogunsala Dep. at 88, ECF No. 48-2). Van
Landingham “seemed impressed with [Plaintiffs]
skills and asked her to send her resume to him via
email.” (Am. Comp, f 8). Over the next few weeks,
Plaintiff called the agency periodically but received
no response from Van Landingham. In mid-August,
an agency receptionist referred Plaintiff to “another
recruiter,” Niya Leek, to whom Plaintiff sent her
resume. {Id. f 9). Plaintiff “followed up with at least
two calls to Ms. Leek,” but did not receive a
response. {Id).
In September 2014, Plaintiff “called again to
follow up on her resume and staffing opportunities
and was referred to Ms. Ekundayo,” to whom
Plaintiff forwarded her resume. {Id. f 10). Plaintiff
passed “office automation tests” and interviewed
with Ekundayo on September 15, 2014. During the
interview, Plaintiff provided names of references,
but when asked about a supervisor’s reference, she
responded that “she had not been in a supervisor
employee relationship in several years but would
provide . . . the name of a supervisor from when she
worked at AT&T.” {Id. If 12). Before Plaintiff left

50
the building, she completed “several employment
forms[,] . . . including the 1-9 form,” and was asked
to resubmit her resume as a Microsoft Word
document. (Id. 1 13). Plaintiffs “final discussions
with Staffing Now personnel [were] regarding
payroll.” (Id. 1 14). Plaintiffs subsequent calls to
Ekundayo and Van Landingham between
September and November of 2014 went
unanswered, and she received no job assignments.
(Id. 11 16-17).
Plaintiff alleges that she has undergraduate
and graduate degrees in Business Administration
and more than twenty years of experience in
“administrative, administration, and office skills.”
(Id. 1 5). Following her interview with Ekundayo,
Plaintiff “was given the impression that she had
great skills and was hired and that she would be
receiving calls for temporary staffing
opportunities”; she “believes that she had an oral
agreement regarding being hired as of her final
interview.” (Am. Compl. 11 17, 18).
In December 2014, Plaintiff filed a charge
with the EEOC, alleging discrimination on the
basis of age, race and national origin. (Charge of
Discrimination, ECF No. 1 at 6). The EEOC
investigated Plaintiffs claims and informed her
that it was “unable to conclude that the information
obtained establishes violations of the statutes” and
that she had a right to file a lawsuit. (Undated
Dismissal and Notice of Rights, ECF No. 1 at 5).
Plaintiff alleges that she “did not receive a charge
letter in the mail” but instead learned about the
decision on January 23, 2015, when she visited the
EEOC to check the status of the investigation. (Am.

51
Compl. f 20). Plaintiff timely filed this civil action
on April 13, 2015.
On November 18, 2015, the court issued a
scheduling order, which closed fact discovery on
May 31, 2016. On August 1, 2016, the court granted
the parties’ joint motion and extended the discovery
deadline to October 14, 2016, and consequently
extended the deadlines for filing and briefing
dispositive motions. Defendant timely filed its
motion for summary judgment on December 28,
2016; Plaintiff missed her January 18, 2017
deadline to file an opposition. After repeated
attempts by Plaintiff to extend deadlines and to
reopen discovery, the court finally denied her
motion to reopen discovery and extended the
deadline to June 16, 2017, for her opposition to
Defendant’s summary judgment motion. The court
left the door open for Plaintiff to file a Rule 56(d)
motion if she could make the requisite showing.
(See May 11, 2017 Order, ECF No. 55).
II. LEGAL STANDARD
Summary judgment is appropriate where
there is no disputed genuine issue of material fact,
and the movant is entitled to judgment as a matter
of law. FED. R. CIV. P. 56(a); Celotex Corp. v.
Catrett, All U.S. 317, 325 (1986). A dispute is
“genuine” only “if the evidence is such that a
reasonable jury could return a verdict for the
nonmoving party.” Anderson v. Liberty Lobby, Inc.,
All U.S. 242, 248 (1986). In determining whether a
genuine issue of material fact exists, the court must
view all facts in the light most favorable to the non-

52
moving party. See Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986).
The moving party bears the “initial
responsibility of informing the district court of the
basis for its motion, and identifying those portions
of the ‘pleadings, depositions, answers to
interrogatories, and admissions on file, together
with the affidavits . . .’ which it believes
demonstrate the absence of a genuine issue of
material fact.” Celotex Corp., 477 U.S. at 323. The
nonmoving party, in response, must “go beyond the
pleadings and by [its] own affidavits, or by the
‘depositions, answers to interrogatories, and
admissions on file,’ designate ‘specific facts showing
that there is a genuine issue for trial.’” Id. at 324.
“If the evidence is merely colorable, or is not
significantly probative, summary judgment may be
granted.” Liberty Lobby, 477 U.S. at 249-50
(citations omitted). “[A]t the summary judgment
stage the judge’s function is not... to weigh the
evidence and determine the truth of the matter but
to determine whether there is a genuine issue for
trial.” Id. at 249.

III. ANALYSIS
In response to Defendant’s motion, Plaintiff
has filed a Rule 56(d) motion. Federal Rule of Civil
Procedure 56(d) provides that “[i]f a non-movant
shows by affidavit or declaration that, for specified
reasons, it cannot present facts essential to justify
its opposition,” a court is empowered to grant the
motion and allow further discovery. FED. R. CIV. P.

53
56(d). A Rule 56(d) affidavit must: (1) outline the
facts the non-movant “intends to discover and
describe why those facts are necessary to the
litigation,” (2) “explain ‘why [the non-movant] could
not produce the facts in opposition to the motion for
summary judgment,’ ” and (3) “show the
information is in fact discoverable.” U.S. ex rel.
Folliard v. Gov't Acquisitions, Inc., 764 F.3d 19, 26
(D.C. Cir. 2014) (citations omitted) (internal
quotation marks omitted). Plaintiff has not satisfied
these criteria in her motion or her sealed
declaration (ECF No. 59). Rather, she (1) rehashes
arguments the court previously considered in
denying her motion to reopen discovery, (2) raises
matters unrelated to the issues at hand, and (3)
argues generally against the summary judgment
motion, to which the court now turns.
Relying mostly on Plaintiffs deposition
testimony, Defendant contends that Plaintiff cannot
establish a prima facie case of discrimination. {See
Def.’s Mem at 2-5, 7-11). The court agrees. Under
Title VII of the Civil Rights Act of 1964, an
employer cannot “fail or refuse to hire . . . any
individual. . . because of such individual’s race,
color, ... or national origin.” 42 U.S.C. § 2000e-2.
Similarly, the Age Discrimination in Employment
Act (“ADEA”) makes it unlawful for a private
employer, such as Defendant, “to fail or refuse to
hire . . . any individual. . . because of such
individual’s age.” 29 U.S.C. § 623(a)(1). The
Supreme Court has interpreted ADEA’s language
as requiring “a plaintiff [to] prove that age was the
‘but-for’ cause of the employer’s adverse decision.”
Gross v. FBL Fin. Servs., Inc., 557 U.S. 167, 176

54
(2009); see Ford v. Mabus, 629 F.3d 198, 205 (D.C.
Cir. 2010) (confirming that “a section 623 plaintiff
must, as Gross holds, show that the challenged
personnel action was taken because of age”).
Otherwise, courts “generally apply the same
approach” in ADEA and Title VII cases. Wilson v.
Cox, 753 F.3d 244, 247 (D.C. Cir. 2014).
In a failure-to-hire case such as this, the
plaintiff
must carry the initial burden ... of establishing a
prima facie case of racial discrimination ... by
showing (i) that [s]he belongs to a racial minority;
(ii) that [s]he applied and was qualified for a job for
which the employer was seeking applicants; (iii)
that, despite [her] qualifications, [s]he was rejected;
and (iv) that, after [her] rejection, the position
remained open and the employer continued to seek
applicants from persons of complainant’s
qualifications. McDonnell Douglas Corp. v. Green,
411 U.S. 792, 802 (1973). See Teneyck v. Omni
Shoreham Hotel, 365 F.3d 1139, 1155 (D.C. Cir.
2004) (“To establish a prima facie case under the
ADEA, for a claim involving a failure to hire, the
plaintiff must demonstrate that (1) she is a member
of the protected class (i.e., over 40 years of age); (2)
she was qualified for the position for which she
applied; (3) she was not hired; and (4) she was
disadvantaged in favor of a younger person.”) (citing
Cuddy v. Carmen, 694 F.2d 853, 856-57 (D.C. Cir.
1982)).
Plaintiff has not produced any evidence of a
specific job vacancy, let alone one for which she
applied, was qualified and was rejected, and those
are “the paradigmatic elements of a prima facie

55
case in a Title VII claim involving a failure to
hire.”23 Id. at 1149. In her Rule 56(d) motion,
Plaintiff contends that “the defendant has not
produced evidence regarding the positions available
nor the criteria for these positions. Nor have they
suggested any other reason why the plaintiff was
not sent out or considered for these assignments.”
(Mot. at 7 (emphasis added)). Plaintiffs argument
prematurely shifts the burden of production to
Defendant. For it is only after “plaintiff succeeds in
proving the prima facie case” by a preponderance of
the evidence that “the burden shifts to the
defendant ‘to articulate some legitimate,
nondiscriminatory reason for the employee’s
rejection.’ ” Tex. Dep’t of Cmty. Affairs v. Burdine,
450 U.S. 248, 252-53 (1981) (quoting McDonnell
Douglas, 411 U.S. at 802).
Plaintiff admits that she was never contacted
about a job assignment and that her follow-up calls
to the agency were not answered. In addition,
Plaintiff has not pointed to anything in the record
indicating that there was a job vacancy. When
asked during her deposition if she had “any specific
discussions of any particular or specific positions
23At the summary judgment stage, the “operative question” is
whether “the employee produced sufficient evidence for a
reasonable jury to find that. . . the employer intentionally
discriminated against the employee on the basis of age” or
some other protected classification. Wilson, 753 F.3d at 247
(citations and internal quotation marks omitted; ellipsis in
original). In answering the question, though, the court must
consider “all the evidence, [including] the prima facie case[.]”
Jones v. Bernanke, 557 F.3d 670, 677 (D.C. Cir. 2009) (quoting
Carter v. George Wash. Univ., 387 F.3d 872, 878 (D.C. Cir.
2004) (internal quotation marks omitted)).

56
that were going to be available or were available,”
Plaintiff replied: “I don’t recall.... I don’t
remember specific conversations about each
individual item, but I know [Ekundayo] said ... we
would be referring you to positions,” (Ogunsula
Dep. at 123:9-15), and when pressed further,
Plaintiff could not identify “a specific position” for
which Ekundayo would have submitted her resume,
{id. at 125:7-13).
In sum, Plaintiff has adduced no evidence,
including her own testimony, from which a
reasonable jury could find or infer that she was
rejected for a job assignment on any basis, let alone
a basis proscribed by Title VII or the ADEA24. And
24Plaintiff assumed that she was hired as a temporary staffer
after her interview with Ekundayo, and appears to be vexed
by the fact that she was not contacted for an assignment given
her education and experience. But such facts, even if true, fail
to establish a claim. It is well established that courts “are not
super-personnel department[s] that reexamine[ ] an entity’s
business decision[s].” Stewart v. Ashcroft, 352 F.3d 422, 429
(D.C. Cir. 2003) (citation and internal quotation marks
omitted; alterations in original). Moreover, courts “may not
‘second-guess an employer’s personnel decision absent
demonstrably discriminatory motive,”’ Fischbach v. District of
Columbia Dep’t of Corr., 86 F.3d 1180, 1183 (D.C. Cir. 1996)
(quoting Milton v. Weinberger, 696 F. 2d 94, 100 (D.C. Cir.
1982)). In her deposition testimony, for example, Plaintiff
admits that during her only conversation with Van
Landingham, which was by telephone, he said nothing about
her race, age or national origin; that they “only exchanged
first names”; (Ogunsula Dep. at 94:10-22), and that the
conversation was “upbeat.” (Id. at 96:13). In addition, Plaintiff
“couldn’t say” that her exchange with Ekundayo about their
African surnames was “discriminatory,” (Id. at 117:18-20), and
the only exchange about her age was reasonably harmless.
(See id. at 118:1-17) (recalling “a specific conversation” where

57
when, “after adequate time for, discovery and upon
motion [a party] fails to make a showing sufficient
to establish the existence of an element essential to
that party’s case, and on which that party will bear
the burden of proof at trial,” the court may properly
grant summary judgment against that party.
Celotex, 477 U.S. at 322.
IV. CONCLUSION
For the foregoing reasons, Defendant’s motion for
summary judgment will be GRANTED, and
Plaintiffs Rule 56(d) motion will be DENIED. A
corresponding order will issue separately.
Date: September 21, 2017

s/
TANYA S. CHUTKAN
United States
District Judge

Ekundayo “commented about me looking younger than I really
am,” while unsure if Ekundayo even knew Plaintiffs age or
what prompted the remark). When asked whether she felt
“that the discussion [with Ekundayo] was in any way
discriminatory,” Plaintiff completely ignored the question and
instead replied: “What I can tell you is that we seemed to be
on track in terms of me being offered positions, being referred
for positions, and all of that.” (Ogunsula Dep. at 118-19:18-2).

58
App. 4

United States Court of Appeals
For the District of Columbia Circuit

No. 17-7150

September Term, 2018
l:15-cv-00625-TSC
Veronica W. Ogunsula,
Appellant
v.
Staffing Now, Inc.,
Appellee.

Before:

Wilkins, and Katsas, Circuit Judges

ORDER
(Filed On: December 3, 2018)
Upon consideration of the amended petition
for rehearing, the supplement thereto, and the
motion to recuse, it is
ORDERED that the motion to recuse be
denied. Appellant has not demonstrated that the
court’s impartiality might reasonably be
questioned. See 28 U.S.C. § 455. It is

59
FURTHER ORDERED that the petition for
rehearing be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk

BY:
Is/

Ken Meadows
Deputy Clerk

+

60
App. 5

United States Court of Appeals
For the District of Columbia Circuit

No. 17-7150

September Term, 2018
l:15-cv-00625-TSC

Veronica W. Ogunsula,
Appellant
v.
Staffing Now, Inc.,
Appellee.

Before:

Wilkins, and Katsas, Circuit Judges

BEFORE:

Garland, Chief Judge, and Henderson,
Rogers, Tatel, Griffith,Srinivasan,
Millett, Pillard, Wilkins, and Katsas,
Circuit Judges

ORDER
(Filed On: December 3, 2018)

61

Upon consideration of the amended petition
for rehearing en banc and the supplement thereto,
and the absence of a request by any member of the
court for a vote, it is
ORDERED that the petition be denied.

Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk

BY:

/s/
Ken Meadows
Deputy Clerk

62
App. 6
United States Court of Appeals
For the District of Columbia Circuit
No. 17-7150
Veronica W. Ogunsula, Appellant
v.
Staffing Now, Inc., Appellee.
MOTION FOR JUDICIAL RECUSAL
NOW COMES Appellant, Veronica W. Ogunsula,
proceeding Pro Se to advise this honorable Court of
possible conflicts of interests. Ms. Ogunsula has
potential claims against parties that may pose a
potential conflict of interest in this case. The
plaintiff intends to pursue civil remedies against
the State Police of Maryland related to a false
arrest in 2017 and other parties involved in false
claims leading to the arrest and detainment of Ms.
Ogunsula. Ms. Ogunsula requests that this court
accord proper consideration to this Motion and
provide whatever consideration it deems necessary.
Dated this 7th day of August 2018,

/s/
Veronica W. Ogunsula, Pro Se

